 AUDIT OF THE OFFICE ON VIOLENCE AGAINST 

WOMEN LEGAL ASSISTANCE FOR VICTIMS GRANT 

  AWARDED TO THE MILE HIGH MINISTRIES

            DENVER, COLORADO



         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


        Audit Report GR-60-14-006 

                March 2014

      AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN 

            LEGAL ASSISTANCE FOR VICTIMS GRANT 

           AWARDED TO THE MILE HIGH MINISTRIES 

                     DENVER, COLORADO 


                               EXECUTIVE SUMMARY 


       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of Grant No. 2009-WL-AX-0007 totaling
$1,015,654 awarded to the Mile High Ministries (MHM) by the Office on Violence
Against Women (OVW).1

       Created in 1995, the OVW administers financial and technical assistance to
communities across the country that are developing programs, policies, and
practices aimed at ending domestic violence, dating violence, sexual assault, and
stalking. The MHM’s mission is to mobilize communities and equip leaders for
transformational work among the poor. The MHM founded the Justice and Mercy
Legal Aid Clinic (JAMLAC) in 2006. JAMLAC provides free representation,
consultations, and general assistance to individuals struggling with domestic
matters, employment, bankruptcy, immigration, landlord/tenant discrepancies,
sealing of records, general civil matters, and public benefits.2

        The objective of the audit was to assess performance in the key areas of
grant management that are applicable and appropriate for the grant under review.
These areas included: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, (4) monitoring of subgrantees and contractors, (5) budget
management and control, (6) financial status and progress reports, (7) program
performance and accomplishments, and (8) special grant requirements. We
determined that property management, program income, and post grant end-date
activities were not applicable to this award.

       We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in this report, the criteria we audit
against are contained in the 2009 and 2011 OJP Financial Guides, the 2012 OVW
Financial Grants Management Guide, and the award documentation.

      We examined the MHM’s accounting records, financial and progress reports,
and operating policies and procedures, and found:

       	   although grant expenditures are included in the MHM’s official accounting
            records, a separate set of accounting records is maintained for the grant.


       1
        Grant No. 2009-WL-AX-0007 was awarded on August 20, 2009, and the grant ends on
September 30, 2015.
       2
          Statements of mission and intent regarding the OVW and the MHM have been taken from
the agencies’ website directly (unaudited).
            However, we found discrepancies between the two sets of accounting
            records and there were no procedures to reconcile the MHM accounting
            records with the grant accounting records;

       	   JAMLAC employees did not maintain timesheets;

       	   $367,520 in questioned payroll costs, including $362,796 in unsupported
            personnel expenditures and $4,724 in unallowable personnel
            expenditures;3

       	   $3,513 in unsupported direct costs;

       	   expenditures that were not properly authorized; and

       	   MHM did not maintain documentation supporting the data reported for
            training activities and volunteer services provided by grant-funded
            personnel.

      This report contains seven recommendations, which are detailed in the
Findings and Recommendations section of this report. Our audit objectives, scope,
and methodology are discussed in Appendix I.




       3
         Some personnel costs were questioned for more than one reason. A summary of
questioned costs can be found in Appendix II.

                                              ii
                                    Table of Contents

INTRODUCTION ................................................................................ 1

                                                                                                
  Background ..................................................................................... 1

                                                                                                     
  Our Audit Approach .......................................................................... 2
   
FINDINGS AND RECOMMENDATIONS................................................ 4
                      
 Prior Audits ..................................................................................... 4

                                                                                                      
 Internal Control Environment ............................................................. 4
        
 Drawdowns ..................................................................................... 6
   
 Expenditures ................................................................................... 7
  
   Personnel Costs............................................................................. 7
    
   Other Direct Costs ....................................................................... 10
     
 Budget Management and Control ...................................................... 10
             
 Reporting ...................................................................................... 11
 
   Financial Reports ......................................................................... 11
    
   Progress Reports ......................................................................... 11
     
 Award Requirements....................................................................... 12
        
 Program Performance and Accomplishments ...................................... 12
                   
 Conclusion .................................................................................... 14
  
 Recommendations .......................................................................... 14
       
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 16
                                   
APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS............ 17

                                                                 
APPENDIX III - MILE HIGH MINISTRIES’ RESPONSE TO THE DRAFT 

AUDIT REPORT ............................................................................... 18

                                                                                                
APPENDIX IV - OVW’S RESPONSE TO THE DRAFT AUDIT REPORT .. 22

                                                             
APPENDIX V - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT........... 25

                                                               
      AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN 

       LEGAL ASSISTANCE FOR VICTIMS GRANT AWARDED 

                  TO MILE HIGH MINISTRIES 

                     DENVER, COLORADO 


                                    INTRODUCTION 


       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of Grant No. 2009-WL-AX-0007 totaling
$1,015,654 awarded to the Mile High Ministries (MHM) by the Office on Violence
Against Women (OVW).1

Background

       Created in 1995, the OVW administers financial and technical assistance to
communities across the country that are developing programs, policies, and
practices aimed at ending domestic violence, dating violence, sexual assault, and
stalking. The OVW’s stated mission is to provide federal leadership in developing
the nation’s capacity to reduce violence against women, and administer justice for
and strengthen services to victims. Currently, the OVW administers 3 formula-
based and 18 discretionary grant programs, established under the Violence Against
Women Act and subsequent legislation.

       The MHM’s mission is to mobilize communities and equip leaders for
transformational work among the poor. Since 1988 MHM has been inviting people
from all walks of life to participate in a blend of practical efforts renewing lives and
communities-projects such as transformational housing, legal advocacy, small
business development, and training urban leaders. The MHM founded the Justice
and Mercy Legal Aid Clinic (JAMLAC) in 2006. The JAMLAC has become a safe and
confidential resource for victims of daily hardship and cruelty. JAMLAC provides
free representation, consultations, and general assistance to individuals struggling
with domestic matters, employment, bankruptcy, immigration, landlord/tenant
discrepancies, sealing of records, general civil matters, and public benefits. The
primary goal of the JAMLAC staff is to provide holistic support to the impoverished
people within the metro Denver community. JAMLAC partners with various
organizations which focus their effort on the homeless and those in danger of
becoming homeless.2

      Grant No. 2009-WL-AX-0007 was awarded under the Legal Assistance for
Victims Grant Program (Legal Assistance Program) and is administered by the MHM.
The Legal Assistance Program strengthens civil and criminal legal assistance for
victims of sexual assault, stalking, domestic violence, and dating violence through

       1
        Grant No. 2009-WL-AX-0007 was awarded on August 20, 2009, and the grant ends on
September 30, 2015.
       2
          Statements of mission and intent regarding the OVW and the MHM have been taken from
the agencies’ website directly (unaudited).
innovative, collaborative programs. This program provides victims with
representation and legal advocacy in family, immigration, administrative agency, or
housing matters, protection or stay-away order proceedings, and other similar
matters. The Legal Assistance Program increases the availability of civil and
criminal legal assistance in order to provide effective aid to victims who are seeking
relief in legal matters arising because of abuse or violence.

Our Audit Approach

        The objective of the audit was to assess performance in the key areas of
grant management that are applicable and appropriate for the grant under review.
These areas included: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, (4) monitoring of subgrantees and contractors, (5) budget
management and control, (6) financial status and progress reports, (7) program
performance and accomplishments, and (8) special grant requirements. We
determined that property management, program income, and post grant end-date
activities were not applicable to this award.

       We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria we audit
against are contained in the OJP Financial Guide, the 2012 OVW Financial Grants
Management Guide, and the award documentation.3 We tested the MHM’s:

       	   internal control environment to determine whether the internal
            controls in place for the processing and payment of funds were adequate
            to safeguard award funds and ensure compliance with the terms and
            conditions of the award;

       	   drawdowns to determine whether drawdowns were adequately
            supported and if the MHM was managing award receipts in accordance
            with federal requirements;

       	   award expenditures to determine the accuracy and allowability of costs
            charged to the award;

       	   monitoring of subgrantees and contractors to determine how the
            MHM administered and monitored contracted funds;

       	   budget management and control to determine the MHM’s compliance
            with the costs approved in the award budgets;

       	   Federal Financial Reports (FFR) and progress reports to determine
            if the required reports were submitted in a timely manner and accurately
            reflect award activity; and

        3
           In February 2012, the OVW issued the 2012 OVW Financial Grants Management Guide,
which is applicable to the grant audited in this report. The 2011 OJP Financial Guide and the OJP
Financial Guide, October 2009 are also applicable to the grant audited in this report.

                                                  2

      	   program performance and accomplishments to determine if the
           MHM is capable of meeting the award objectives;

      	   Award Requirements – to determine whether the MHM complied with
           award guidelines and special conditions.

     The results of our analysis are discussed in detail in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                         3

                  FINDINGS AND RECOMMENDATIONS

      We found that the MHM did not comply with essential grant conditions
      in the areas of internal controls, grant expenditures, and grant
      reporting. Specifically, although grant expenditures are included in the
      MHM’s official accounting records, a separate set of accounting records
      is maintained for the grant and there were no procedures to reconcile
      the MHM accounting records with the grant accounting records. Also,
      the MHM did not maintain timesheets for grant-funded personnel or
      maintain documentation supporting the data reported for training
      activities provided by grant-funded personnel. Overall, we identified
      $366,309 in Questioned Costs. Based on our audit results, we make
      three recommendations to address dollar-related findings and four
      recommendations to improve the management of DOJ grants.

Prior Audits

       The Office of Management and Budget (OMB) Circular A-133 requires that
non-federal entities that expend $500,000 or more per year in federal funding have
a single audit performed annually. However, a single audit was not required for
MHM because expenditures of federal funds did not exceeded the $500,000
threshold required for a single audit per OMB Circular A-133 for FY 2011 and FY
2012.

       As a result, we reviewed MHM’s financial statement audits for FYs 2011 and
2012. We noted in the Independent Auditor's Report that MHM received an
unqualified opinion for the financial statements ending June 30, 2011, as well as for
the financial statements ending June 30, 2012. Also, during our review of the
financial statements and the financial statement audits for FY 2011 and FY 2012,
we did not note any mention of material weaknesses or significant deficiencies in
MHM’s internal controls.

Internal Control Environment

       We reviewed the MHM’s internal control environment, including procurement,
receiving, and payment procedures; the payroll system; and monitoring of
contractors and subgrantees to determine compliance with the terms and conditions
of the grant and to assess risk.

       The Operations Director stated that MHM has used QuickBooks since its
inception to track the financial transactions of all MHM programs (including the
JAMLAC). However, according to MHM officials its Chart of Account structure was
not consistent with the requirements of OVW and as a result, the JAMLAC Associate
Director maintains a separate set of QuickBooks accounting records for the grant.
MHM officials stated that the accounting records received by the OIG during this
audit, were exported from the JAMLAC Associate Director’s QuickBooks file for the
grant.


                                          4

        When discussing procurement, payment, and approval processes, MHM
officials explained that for purchases under $100 no prior approval is required. The
purchaser attaches receipts to a reimbursement form and submits it to the JAMLAC
Executive Director for approval. Approved reimbursements are recorded in the
grant accounting records by the JAMLAC Associate Director and forwarded to the
MHM Operations Director for processing and payment, and recorded in the official
MHM accounting records.

      Purchases over $100 are approved by the JAMLAC Executive Director and
submitted to the Associate Director for entry into the grant accounting records.
The Associate Director then completes a payment request form, with the original
supporting documentation attached. Using this form, the MHM Operations Director
and the Staff Accountant create and distribute vendor payment, record it in MHM’s
accounting records, and retain the request form (and receipts).

      According to MHM officials, for grant payroll transactions, the JAMLAC
Executive Director maintains information for payment allocations and then prepares
a payment request to the Associate Director who enters it into the grant accounting
records. Using this form, the MHM Operations Director disburses the wages to
JAMLAC employees and records the payroll transactions in MHM’s accounting
records.

      The JAMLAC Associate Director also notifies MHM of all grant drawdown
requests. The MHM Operations Director and the Staff Accountant enter grant
drawdown requests as a receivable in the MHM accounting records and track
deposits of drawdown from OVW, ensuring no grant receivables are unfulfilled.

      However, during our audit, we noted discrepancies between the grant
accounting records maintained by JAMLAC and the MHM accounting records. For
example, for the pay period ending April 30, 2010, none of the charges from the
MHM paystubs we received were entered into the JAMLAC grant accounting records.
We also found that MHM does not perform reconciliations between the two sets of
accounting records. Therefore, there is no assurance that all grant transactions are
recorded on the JAMLAC grant accounting records that are used to calculate grant
drawdowns and prepare financial reports. As a result, we recommend that MHM
and JAMLAC officials implement procedures to ensure that grant accounting records
reconcile to MHM accounting records.

       During our review of MHM payroll procedures, MHM officials stated that
employees are paid semi-monthly. According to the Mile High Ministries Employee
Handbook: Nonexempt employees must record actual time worked for payroll and
benefit purposes. Nonexempt employee Weekly Work Hours Report is to be
completed in full, signed by the employee and his or her supervisor, and turned in
at the end of each pay period to the Executive Director or direct supervisor.
Exempt employees are also required to complete a Weekly Work Hours Report
recording time worked along with activities and to report full days of absence from
scheduled work days for illnesses, leaves of absence, personal time off, etc. Any
errors in a Weekly Work Hours Report must be reported immediately to the

                                         5

supervisor, who will attempt to correct legitimate errors. Altering, falsifying, and
tampering with time records, or recording time on or signing another employee's
time record is prohibited and subject to disciplinary action, up to and including
termination of employment.

       However, we determined that timesheets were not maintained for JAMLAC
employees paid using grant funds. As discussed in the Personnel Costs section of
this report, we identified discrepancies with grant payroll involving timekeeping and
paystubs. We noted that the Associate Director did not work consistent hours due
to his second job (which was not for Mile High Ministries) but there were no
timesheets confirming the hours that the Associate Director worked. Also, we
noted instances for the second Family Law Attorney, Legal Advocate, Paralegal, and
Immigration Attorney where timesheets were not maintained to support portions of
time charged to the grant and instances where the general ledger entry for several
individuals' salaries did not reconcile to the amount listed in the corresponding
paystub. We make an appropriate recommendation in the Personnel Costs section
of this report.

       JAMLAC officials stated that they worked with partner agencies that provided
victim services along with the JAMLAC. JAMLAC officials stated that there is no
formal assessment of partner agencies but that most issues are discussed at
executive director meetings and provided meeting minutes as examples of issues
discussed. In addition, our audit did not disclose any discrepancies involving
partner agency costs during our transaction testing. Therefore, we did not note any
issues related to the monitoring of partner agencies paid using funds from Grant
No. 2009-WL-AX-0007.

Drawdowns

       To determine the procedures for drawing down funds, we conducted
interviews with the MHM officials and determined that the drawdowns are based on
reimbursements. According to the OJP Financial Guide and 2012 OVW Financial
Grants Management Guide, recipients should time their drawdown requests to
ensure that federal cash on hand is the minimum needed for disbursements or
reimbursements to be made immediately or within the next 10 days. We analyzed
Grant No. 2009-WL-AX-0007 to determine if the total actual costs recorded in the
accounting records were equal to, or in excess of, the cumulative drawdowns as
recorded by the OVW. Based on our review, we found that cumulative grant
expenditures exceeded cumulative grant drawdowns. Therefore, we make no
recommendations in this area.




                                          6

Expenditures

       According to the 2012 OVW Financial Grants Management Guide, all
recipients are required to establish and maintain accounting systems and financial
records to accurately account for funds awarded to them. We initially selected a
sample of 45 transactions, totaling $84,920, consisting of 22 personnel transactions
and 23 other direct cost transactions, to determine whether grant expenditures
were allowable, reasonable, and in compliance with the terms and conditions of the
awards.

Personnel Costs

       According to the original OVW-approved budget, two full-time positions (1.0
Full-Time Equivalent (FTE)) were funded by the grant, a Family Law Attorney and
an Immigration Attorney. The grant also funded a Paralegal position on a part-time
basis (0.6 FTE). With the award of the first supplement to the grant, the three
positions previously mentioned were funded by the grant on a full-time basis (1.0
FTE). Additionally, a second Family Law Attorney and a Legal Advocate were
funded by the grant on a part-time basis (0.5 FTE).

         As discussed in the following sections, we identified discrepancies with grant
payroll involving timekeeping and paystubs. Due to the discrepancies noted in our
initial testing, we determined that it was appropriate to expand testing of payroll
expenditures. We expanded our testing to include all JAMLAC employees paid using
grant funds for 10 pay periods, 2 pay periods for each calendar year since the
award of the grant. We also requested that MHM officials provide a list of
employees paid by Grant No. 2009-WL-AX-0007 that included: (1) FTE amounts
for each employee (part-time vs. full-time work for the JAMLAC), (2) the
percentage of time/salary that each employee spent on the grant, and (3) the
applicable time periods for items one and two to note any changes made by MHM,
like moving a part-time position to a full-time position.

       During our initial transaction testing of 22 personnel transactions we noted
the following discrepancies:

   	 For 10 transactions related to part-time grant-funded positions timesheets
      were not maintained to support the time charged to the grant or the time
      charged to other cost activities.

   	 For two transactions the amount allocated to the grant on the employee’s
      paystub did not reconcile to the grant accounting records and timesheets
      were not maintained to support the time charged to the grant or the time
      charged to other cost activities.

       As stated previously, the Mile High Ministries Employee Handbook requires
that all employees must prepare a Weekly Work Hours Report to record hours
worked and time off. In addition, the OJP Financial Guide and the 2012 OVW
Financial Grants Management Guide, state that where salaries apply to the

                                          7

execution of two or more grant programs, cost activities, project periods, and/or
overlapping periods proration of costs to each activity must be made based on time
and/or effort reports signed by the employee and by a supervisory official having
first-hand knowledge of the work performed. However, timesheets were not
maintained for any of the grant-funded positions. Therefore, we recommend that
MHM maintain timesheets and/or activity reports, as appropriate, for grant-funded
employees.

      For the initial grant award period from October 2009 to September 2011, the
Paralegal was only budgeted for 0.6 FTE. During our review, we noted that 64
percent of the Paralegal’s salary was charged to the grant; however, as previously
mentioned, MHM did not maintain timesheets for JAMLAC employees to support the
time charge to multiple cost activities. As a result, we found that grant-funded
personnel costs for the Paralegal from the start of the grant through September
2011, totaling $54,670, were unsupported.

       We noted several instances where the Immigration Attorney was paid for less
than the budgeted 1.0 FTE and the remainder was paid and worked by other
JAMLAC employees. Specifically, during our review of sample transactions, we
identified three instances where only a portion of the Immigration Attorney salary
was charged to the grant and a portion of the JAMLAC Executive Director’s salary
was charged to the grant for the Immigration Attorney position. Our sample review
also identified three similar instances involving other JAMLAC employees’ salaries
charged to the grant for the Immigration Attorney position.

       During our review of the accounting records, we also noted that personnel
costs were entered in the grant accounting records on a lump-sum basis for
positions that had multiple grant-funded FTEs. For example, if multiple employees
were paid for the same position, there would be one general ledger entry for their
salaries instead of having multiple entries for each individual paid using grant
funds. Due to the nature of these general ledger entries, we were not able to
identify the personnel costs charged to the grant for Immigration Attorney’s salary
as opposed the personnel costs for other staff that were charged to the grant for
the Immigration Attorney position. In addition, MHM did not maintain timesheets
for JAMLAC employees that would have allowed us to determine the time charged
to the grant by the Immigration Attorney or other staff charged to the grant for the
Immigration Attorney position. In summary, we found that MHM could not support
the Immigration Attorney personnel costs charged to the grant because of: (1) the
nature of payroll entries made in the grant accounting records, (2) the lack of
timesheets for grant-funded positions, and (3) the fact that the salaries of other
staff were charged to the grant for the Immigration Attorney position. As a result,
we determined that grant-funded personnel costs for the Immigration Attorney
from the start of the grant to December 15, 2011, totaling $95,677, were
unsupported.

       According to the approved grant budget, the Legal Advocate was budgeted
for 0.5 FTE. However, as previously mentioned, MHM did not maintain timesheets


                                         8

for JAMLAC employees to support the time charge to multiple cost activities. As a
result, we found that grant-funded personnel costs for the Legal Advocate from the
start of the grant through September 2011, totaling $31,924, were unsupported.

        According to the approved grant budget, for the initial period (October 2009
to September 2011) one Family Law Attorney was funded for 1.0 FTE. For the
supplement period (October 2011 - September 2013), two Family Law Attorneys
were funded, one for 1.0 FTE and the other for 0.5 FTE. During our review we
noted that the Family Law Attorney funded for 1.0 FTE, the JAMLAC Associate
Director, had another job, which was not for the MHM. According to the Operations
Director, the Associate Director worked 20-30 hours per week. However, the
JAMLAC Executive Director explained that the Associate Director does not
necessarily work 20-30 hours each week. He further explained that the Associate
Director has been a pilot since prior to working at the JAMLAC and that he was a
pilot trainer. Due to his outside job requirements, the Associate Director was
required at times to be gone up to a week. According to the JAMLAC Executive
Director some weeks the Associate Director only worked 20 hours, while other
weeks he worked 60 hours. Based on the statements made by MHM officials, the
Associate Director was not working consistent hours. However, we could not
confirm the hours that the Associate Director worked as a Family Law Attorney
since MHM did not maintain timesheets for JAMLAC employees.

        After speaking with MHM officials about this matter, they provided a form
signed by the Associate Director and the JAMLAC Executive Director indicating that
his work at MHM was solely on the OVW Legal Assistance for Victims grant program
for the period October 1, 2012 to March 31, 2013. However, due to the infrequent
nature of the Associate Director’s working schedule, we could not accept this
certification as supporting documentation for the personnel costs charged to the
grant related to this position.

       In addition, during our review, we noted instances where the Associate
Director’ salary was not charged to the grant, indicating that his work at MHM was
not solely for grant related activities. We also identified one transaction in our
sample where $478 of the JAMLAC Executive Director’s salary was charged to the
grant for the Family Law Attorney position even though the Associate Director’s
salary was charged to the grant for the same pay period. In addition, due to the
nature of the general ledger entries, we could not verify when the Associate
Director’s personnel costs were charged to the grant or when another JAMLAC
employee’s salary was charged to the grant for the Family Law Attorney position
because the general ledger entries did not list expenditures for each individual
JAMLAC employee. Although we received a form stating that the Associate Director
worked solely on the OVW Legal Assistance of Victims grant program, due to
(1) the inconsistent hours worked by the Associate Director; (2) inconsistencies
between paystubs and general ledger entries; (3) the fact that the salaries of other
staff were charged to the grant for the Family Law Attorney position and (4) the
nature of general ledger entries we consider the salary payments made to the
Associate Director to be unsupported.


                                         9

      We also found that for the second Family Law Attorney, who from January
2013 onward was a full-time employee, only a portion of her salary was charged to
the grant indicating that her work at MHM was not solely for grant related activities.
However, the MHM did not maintain timesheets for JAMLAC employees to support
the second Family Law Attorney’s time charged to multiple cost activities.
Therefore, we determined that personnel costs charged to the grant for both Family
Law Attorneys, totaling $180,525 were unsupported.

       In summary, we determined that personnel costs charged to the grant for
the Paralegal, Legal Advocate, Immigration Attorney, and both Family Law Attorney
positions, totaling $362,796, were unsupported. Therefore, we recommend that
the OVW remedy the $362,796 in unsupported personnel costs. Also, during our
review, we noted several instances where JAMLAC employees that were not
included in the approved budget were being paid using grant funds. We
determined that because these JAMLAC employees were not included in the
OVW-approved budget, these payments, totaling $4,724, are unallowable.
Therefore, we recommend that OVW remedy the $4,724 in unallowable personnel
costs.

Other Direct Costs

       During our review of other direct costs, we identified four transactions
totaling $3,513 that were not supported. Therefore, we recommend that OVW
remedy the $3,513 in unsupported other direct costs. Additionally, during our
review of other direct costs, we found that the supporting documentation did not
indicate that expenditures were properly authorized by a grantee official with
appropriate authority. Therefore, we recommend the OVW ensure the MHM
develop policies and procedures to ensure that expenses are supported and
properly authorized.

Budget Management and Control

      For Grant No. 2009-WL-AX-0007, the MHM received an approved budget
broken down by categories including Personnel, Fringe Benefits, Travel, Equipment,
Supplies, Contractual, and Other. The OJP Financial Guide and the 2012 OVW
Financial Grants Management Guide require that the recipient initiate a Grant
Adjustment Notice for budget modification if the proposed cumulative change is
greater than 10 percent of the total award amount. For Grant No.
2009-WL-AX-0007, we conducted detailed analysis of expenditures by budget
category and found that the MHM expenditures were within the 10 percent
threshold allowed. Therefore, we make no recommendations in this area.




                                         10

Reporting

      We reviewed the Federal Financial Reports (FFRs) and Categorical Assistance
Progress Reports (progress reports) to determine if the required reports had been
submitted accurately, and within the timeframes required by the OJP Financial
Guide and the 2012 OVW Financial Grants Management Guide.

Financial Reports

       The OJP Financial Guide and the 2012 OVW Financial Grants Management
Guide require that grant recipients report expenditures online using the SF-425 FFR
no later than 30 days after the end of each calendar quarter. The final report must
be submitted no later than 90 days following the end of the grant period. We
evaluated the timeliness of the four most recent FFRs for Grant No. 2009-WL-AX-
0007 and determined that they were submitted in a timely manner.

      We also evaluated the accuracy of FFRs for the last four quarters for Grant
No. 2009-WL-AX-0007. We found that for two of the four FFRs reviewed, the
expenditures for the reporting periods were not supported by the general ledger.
However, we determined that the cumulative expenditures for three of the four
most recent FFRs were supported by the general ledgers, as shown in Exhibit 1.
Therefore, we make no recommendations in this area.

EXHIBIT 1: FEDERAL FINANCIAL REPORT ACCURACY FOR GRANT 2009-
            WL-AX-00074
                                                               CUMULATIVE
                                                              EXPENDITURES         CUMULATIVE
                                             CUMULATIVE           PER          DIFFERENCE BETWEEN
  REPORT            REPORT PERIOD           EXPENDITURES       ACCOUNTING      FFRS & ACCOUNTING
  NUMBER           FROM - TO DATES            PER FFR           RECORDS             RECORDS
    11        04/01/2012 - 06/30/2012          $ 586,711        $ 603,901              $ 17,190
    12        07/01/2012 – 09/30/2012           677,775           677,775                      -
    13        10/01/2012 - 12/31/2012           754,820           754,820                      -
    14        01/01/2013 - 03/31/2013           837,534           837,534                      -
Source: MHM accounting records and OJP’s Grants Management System

Progress Reports

       According to the OJP Financial Guide and the 2012 OVW Financial Grants
Management Guide, progress reports are due semiannually on January 30 and July
30 for the life of the award. To verify the timely submission of progress reports, we
reviewed the last four progress reports submitted for Grant No. 2009-WL-AX-0007
and determined that they were submitted in a timely manner.




         4
           Throughout this report, differences in the total amounts are due to rounding. The sum of
individual numbers prior to rounding may differ from the sum of the individual numbers rounded.

                                                 11

        We also reviewed the progress reports for accuracy. MHM officials stated
that they were given a database software program which was used by a volunteer
for the JAMLAC to input performance data. The JAMLAC volunteer stated that the
data she input into the system came from client intake forms (which every client
fills out upon coming to the JAMLAC). However, the MHM does not maintain
documentation supporting the data reported for the training activities performed by
JAMLAC and its partner agencies. According to MHM officials, during their weekly
staff meeting, they will ask each staff member about the trainings that they have
provided and the number of people trained.

       To verify the information reported, we selected a sample of statistical data
from the last two progress reports for the periods ending June 30, 2012, and
December 31, 2012. We compared the information in the progress reports
reported to reports generated from the database mentioned previously for the
reporting periods. We also selected a judgmental sample of 45 case files to verify
the accuracy of the information in the database and found no indication that the
database contained inaccurate information.

        Based on our review of the last 2 progress reports, we found that 40 of the
46 progress report items were supported. Two of the remaining six items were not
accurate but the differences between the reported information and the supporting
documentation were immaterial. The remaining four items were related to training
activities and volunteer services provided by JAMLAC personnel for which MHM does
not maintain supporting documentation. Therefore, we recommend that MHM
develop policies and procedures to ensure that documentation is maintained to
support the progress report data related to training activities and volunteer services
provided by JAMLAC personnel.

Award Requirements

      We reviewed the MHM’s compliance with additional grant requirements, such
as the special conditions and found that the grant contained typical standard
language requirements for adherence to laws, regulations and other guidelines. We
also noted additional requirements regarding the activities performed under the
grant. However, except for the previously discussed issues related to grant
accounting records, personnel costs, and progress reports, we did not note any
instances where the MHM did not comply with the grant’s special conditions.

Program Performance and Accomplishments

        In order to assess program performance and accomplishments, we requested
that the MHM provide evidence demonstrating that the goals and objectives of the
awards had been met, or are sufficiently in progress. According to grant
documents, the goal of the grant was to increase safety and empower immigrant
and non-immigrant victims of domestic violence, sexual assault, stalking, and
dating violence. In the original award and in a supplement to the award, MHM
officials planned to measure grant progress with the following objectives:


                                         12

2009-WL-AX-0007 (Original Award)
      Develop standardized processes, intake forms, follow-up surveys, and volunteer training
       curriculum.
      800 clients will receive advocacy and support services.
      180 individuals will receive domestic relations representation.
      150 individuals will receive immigration representation.
      500 hours of volunteer time will be provided.
      100 staff members and volunteers from the JET Partnership organizations receive training
       regarding recognizing and improving response to domestic violence, sexual assault, stalking,
       and dating violence
2009-WL-AX-0007 (Supplement 01)
      Update standardized processes, procedure and policy manual, intake forms, follow-up surveys,
       and volunteer training curriculum, incorporating the Mobile Community Clinic.
      Establish the Mobile Community Clinic and add another location at an easily accessible
       location, such as a social services office, a community medical clinic, or a shelter.
      1000 clients will receive advocacy, support, and referral services.
      240 individuals will receive comprehensive civil attorney representation in court.
      170 individuals will receive immigration representation.
      1200 hour of volunteer time.
      100 staff members, volunteers, and community professionals will receive training regarding
       recognizing and improving response to sexual assault, domestic violence, dating violence, and
       stalking.
Source: OJP’s Grants Management System

      Using the database mentioned in the Progress Reports section of this report,
MHM officials provided us with a report showing program activity from October 1,
2009, to May 24, 2013. From the program activity report, we determined that:

   	   1,216 Victims were served or partially served,

   	   172 victims seeking services were not served,

   	   794 victims were served in relation to        family law matters,:
           o	 493 victims were provided with          divorce legal services,
           o	 627 victims were provided with          custody/visitation legal services, and
           o	 523 victims were provided with          child/spousal support legal services,

   	   544 victims received legal services regarding immigration matters,
           o	 131 victims were provided with legal services relating to a VAWA self-
              petition, and
           o	 378 victims were provided with legal services relating to a U-Visa.

       We also noted the following statistics for victims services provided by non-
        legal staff:
           	 207 victims received safety planning services,
           	 2 victims were provided support services, and
           	 390 victims were provided non-attorney legal advocacy services.

       Based on our review, we did not find any indication that the MHM is not on
track to accomplish the goal and objectives of grant No. 2009-WL-AX-0007.



                                                13

Conclusion

       The purpose of this audit was to determine whether reimbursements claimed
for costs under the grant were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, terms and conditions of the awards, and to
determine program performance and accomplishments. We examined the MHM’s
accounting records, financial and progress reports, and operating policies and
procedures, and found:

      	   although grant expenditures are included in the MHM’s official accounting
           records, a separate set of accounting records is maintained for the grant.
           However, we found discrepancies between the two sets of accounting
           records and there were no procedures to reconcile the MHM accounting
           records with the grant accounting records;

      	   JAMLAC employees did not maintain timesheets;

      	   $367,520 in questioned payroll costs, including $362,796 in unsupported
           personnel expenditures and $4,724 in unallowable personnel
           expenditures;

      	   $3,513 in unsupported direct costs;

      	   expenditures were not properly authorized; and

      	   MHM did not maintain documentation supporting the data reported for
           training activities and volunteer services provided by grant-funded
           personnel.

Recommendations

We recommend that the OVW coordinate with the MHM to:

      1.	 Implement procedures to ensure that grant accounting records reconcile
          to MHM accounting records.

      2.	 Maintain timesheets and/or activity reports, as appropriate, for grant-
          funded employees.

      3.	 Remedy the $362,796 in unsupported personnel costs.

      4.	 Remedy the $4,724 in unallowable personnel costs.

      5.	 Remedy the $3,513 in unsupported other direct costs.

      6.	 Develop policies and procedures to ensure that expenses are supported
          and properly authorized.


                                         14

7.	 Develop policies and procedures to ensure that documentation is
    maintained to support progress report data related to training activities
    and volunteer services provided by JAMLAC personnel.




                                   15

                                                                                   APPENDIX I

                 OBJECTIVES, SCOPE, AND METHODOLOGY

        The objective of the audit was to assess performance in the key areas of
grant management that are applicable and appropriate for the grant under review.
These areas included: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, (4) monitoring of subgrantees and contractors, (5) budget
management and control, (6) financial status and progress reports, (7) program
performance and accomplishments, and (8) special grant requirements. We
determined that property management, program income, and post grant end-date
activities were not applicable to this award.

       We tested compliance with what we consider to be the most important
conditions of the grants and cooperative agreement. Unless otherwise stated in
this report, the criteria we audit against are contained in the OJP Financial Guide,
the 2012 OVW Financial Grants Management Guide, and the award documentation.5

      Our audit concentrated on, but was not limited to, August 20, 2009, the
award date for Grant No. 2009-WL-AX-0007, to April 26, 2013, the date the most
recent FFR was submitted. This was an audit of OVW Grant No. 2009-WL-AX-0007.
The MHM has drawn a total of $852,155 in grant funds as of April 30, 2013.

       We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

      In conducting our audit, we performed sample testing in three areas, which
were grant expenditures (including personnel expenditures), financial reports, and
progress reports. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the awards reviewed, such as dollar
amounts, expenditure category, or risk. However, this non-statistical sample
design does not allow a projection of the test results for all grant and cooperative
agreement expenditures or internal controls and procedures.

        In addition, we evaluated internal control procedures, drawdowns,
monitoring of subgrantees and contractors, budget management and controls, and
program performance and accomplishments. However, we did not test the
reliability of the financial management system as a whole, and reliance on
computer based data was not significant to our objective.


        5
           In February 2012, the OVW issued the 2012 OVW Financial Grants Management Guide,
which is applicable to the grant audited in this report. The 2011 OJP Financial Guide and the OJP
Financial Guide, October 2009 are also applicable to the grant audited in this report.

                                                 16

                                                                                APPENDIX II

                  SCHEDULE OF DOLLAR-RELATED FINDINGS

DESCRIPTION                                                                  AMOUNT          PAGE

Questioned Costs6


           Unallowable Personnel:                                               $4,724        10
           Total Unallowable:                                                   $4,724


           Unsupported Other Direct Costs:                                      $3,513        10
           Unsupported Personnel:                                             $362,796        10
           Total Unsupported:                                                 $366,309


           Total (Gross):                                                     $371,033
                            7
           Less Duplication :                                                 ($4,724)


Net Questioned Costs:                                                        $366,309




        6
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of the audit, or
are unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver, recovery of
funds, or the provision of supporting documentation.
       7
          Some costs were questioned for more than one reason. Net questioned costs exclude the
duplicate amount.

                                                17

                                                                                              APPENDIX III

MILE HIGH MINISTRIES’ RESPONSE TO THE DRAFT AUDIT REPORT



                  JUSTICE AND MERCY
                    LEGAL AID CLINIC                              DO JUSTICE, LOVE MERCY, WALK HUMBLY
                  A PROGRAM O f MIlE HI G H MINISTRIES

                                                                  january 28, 2014

     David M. Sheeren
     Regional Audit Manager
     Denver Regional Audit Office
     Office of the Inspector Genera l
     U.S. Department of justice
     1120 Lincoln Street, Suite 1500
     Denver, CO 80203

     Re: Response to Draft Audit Report: Audit of Grant No. 2009-WL-AX-0007

     Dear Mr. Sheeren:

     This letter is the formal response to the recommendations included in the Draft Audit
     Report: Audit of the Office on Violence Against Women Legal Assistance For Victims Grant
     Awarded to Mile High Ministries (MHM), Grant No. 2009 -WL-AX-0007. Each
     recommendation will be stated and fo ll owed by a response.
                                                                                           ,,
     1. Implement procedures to ensure that grant accounting records reconcile to MHM .....
        accounting records.

             a.    We agree with the recommendation that grant accounting records must be
                   reconciled. In response to the audit, MHM implemented its new accounting
                   procedures on july 1, 2013. The new procedures require that Grant and MHM
                   accounting records be reconciled on a monthly basis. Accordingly, this issue has
                   been corrected.

     2.   Maintain timesheets and/or activity reports, as appropriate, for grant-funded employees.

             a. We agree with the recommendation to maintain timesheets. In response to the
                   audit, MHM implemented new procedures on ju ly 1, 2013, where all MHM
                   employees, including those emp loyees who work sole ly on the OVW grant, must
                   maintain timesheets. (Encl. 1) Additionally, the timesheets will be retained for at
                   least 3 years. We would like to offer however, that when we went to the Financial
                   Management Training. there was no mention of a requirement to maintain
                   timesheets. Also, in the 2009 Financial Guide there is no mention of a
                   requirement to keep timesheets unless an employee is working for "Two or More



   913 N. Wyandot St.
   Denver, CO 80204
   303-839-1008
   303-595-5278 (f)
   jamlac@milehighmin.org
   www.milehighmin.org/jamlac




                                                         18

         b. Federal Grant Programs.'" In fact, the guide states that "[c]harges made to
            Federal awards for personal services (including, but not limited to salaries, wages,
            and fringe benefits), whether treated as director indirect costs, will be based on
            payrolls documented in accordance with the generally accepted practice of the
            organization."2 When we were awarded the grant in 2009, timesheets were not
            required at MHM. Thus, charges were treated based on the MHM payroll system.
            Accordingly, this issue has been corrected.

3. Remedy the $362,796 in unsupported personnel costs.

         a. We disagree with the recommendation that $362,796 is unsupported. We agree
             that there are no timesheets for the observed periods; however, the personnel
            costs are supported by the services provided. As stated in the DraftAudit Report,
            "we did not find any indication that the MHM is not on track to accomplish the
            goal and objectives of grant No. 2009-WL-AX-0007."3 Additionally the Draft Audit
            Report noted that "we did not note any instances where the MHM did not comply
            with the grant's special conditions."4 Furthermore, the OJP Financial Guide and
            the 2012 OVW Financial Grants Management"Guide state that "[Wlhen recipient
            employees work solely on a specific grant award, no other documentation is
            required. However, after-the-fact certifications that the employee is working 100
            percent of their time on the grant award must be prepared."s In this case, the
            Immigration Attorney and a Family Law Attorney only perform OVW grant­
            related activities and provided the auditor with forms certifying that they worked
            solely on the OVW Legal Assistance of Victims grant program. (End. 2) The other
            issues related to the unsupported costs are attributed to inconsistent accounting
            processes. MHM recognized these deficiencies when the new Operations Director
            began working at MHM in 2012. These issues were corrected with the beginning
            of MHM's fiscal year on July 1, 2012, when new accounting processes were
            implemented. Finally, as indicated above, when we went to the Financial
            Management Training there was no mention of a requirement to maintain
            timesheets.

4. Remedy the $4,724 in unallowable personnel costs.

        a. We disagree that $4,724 were unallowable personnel costs. We agree that there
           were no timesheets for the observed periods; however, in each instance, the
           JAM LAC employee performed the duties associated with the transaction

12009 Financial Guide, Department of Justice, p. 72.
, 2009 Financial Guide, Department of Justice, p. 72.
3 Draft Audit Report, p. 14.
4 Draft Audit Report, p. 12.
5 2012 OVW Financial Grants Management Guide, p. 56.




                                                                                             2




                                                        19

           description. Because our legal clinic is small we had a policy that employees
           could fill-in for employees if the situation warranted it. This policy was changed
           when the new Operations Director began working at MHM in 2012. Accordingly,
           this issue has been corrected.

5. Remedy the $3,513 in unsupported other direct costs.

       a. We partially agree with the $3,513 of unsupported costs. We disagree that the
          ODM - Rent is unsupported. An invoice provided by Open Door Ministries to
          MHM is included in Encl. 3. In regards to the remaining unsupported other direct
          costs, we could not acquire the receipts for the other transactions. However, we
          attached notes and scanned nametags from the training event. (Encl. 4) Thus, we
          agree with the remaining $2,413 unsupported other direct costs. However, all
          funds were applied to grant-related charges.

6. Develop policies and procedures to ensure that expenses are supported and properly
   authorized.

       a. We agree with the recommendation to develop policies and procedures to ensure
          that expenses are supported and properly authorized. In response to the audit,
          all expenses are submitted to the Executive Director for signed approval. Then,
          the Executive Director sends the approved invoice to MHM accounting for
          processing. Thus, this issue has been corrected.

7. Develop policies and procedures to ensure that documentation is maintained to support
   progress report data related to training activities and volunteer services provided by
   JAM LAC personnel.

       a. We agree with the recommendation to develop policies and procedures to
          document training activities a nd volunteer services provided by JAM LAC
          personnel. In response to the audit, MHM implemented new procedures on july 1,
          2013, where all training activities and volunteer services will be documented and
          retained for 3 years. The new forms are attached as Encl. 5 and Encl. 6 and
          include signed forms from trainings and volunteers services that have occurred
          since july 1, 2013. Accordingly, this issue has been corrected.

Thank you for the opportunity to respond to the Draft Audit Report. We believe that this
process has helped tighten up our poli cies and procedures. We look forward to working
together with OVW to satisfy all recommendations and continue our deep commitment to
providing victims of domestic violence, sexual assault, stalking, and dating violence first­
class legal representation. If I can provide any additional information or if you have any




                                                                                               3




                                             20

other questions, please feel free to call me at 303-229-8252 or email at
sthompson@milehighmin.org.

Sincerely,
                 -v'-------
Steve Thompson
Executive Director
Justice and Mercy Legal Aid Clinic

Enclosures (6)




                                                                           4




                                            21

                                                                                                                 APPENDIX IV

OVW’S RESPONSE TO THE DRAFT AUDIT REPORT



                                                                  U.S. Department of Justice
                                                                  Office 0 11 Vio le n ce Against Wo m e n
                                                                  Washing to n . D . C. 2 0530




                                                                                       F e bru a ry 12 , 20 14


M EMORAND UM


TO:                       David M . S h eercn
                          R egi o nal Aud it Manager
                          Den ver R e gio nal Aud it Office

FROM :                    Bea H a nso l1/f1: V
                          Di rector       \ Tl.4
                          O ffi ce on Vio le n ce Agai nst W o m en

                          Rodney S amuels      ~
                          S ta ft· Accou ntant/Audit Liai son
                          Office o n Violence Agai ns t Women

SUBJECT:                  Office on Vi o lence Against Women Legal Ass istance for V ic tims Grant
                          Awarded to the Mil e High M inistries D enver, Colorado


T his memoran dum is in respon se to your correspondence dated J anuary 8 , 2014 transmitting
the above draft audit report tor the M ile H igh Mini s tries (M H M). W e consider the s ubject
report resolved and request w ritten acceptance of this actio n from your o ffi ce.

The report co n tains seven recomm e ndation s which include $ 3 66.309 in unsupported costs and
$4,724 in unallowabl e costs. T h e Otl1cc o n Violence Aga inst W o men (O VW) Ub'Tces wi th the
rCl.!ommcndations and is co mmitted to work ing with th e grantee to address e a ch item and b ring
them to a close as quickly as possibl e . T he tollo wing is an anal ys is of the audi t
rccom m e nd ati o ns :

      I.   Implement procedures to ensure that grant accountjng records reconcile to MI-IM
           a ccountin g reco rds.

              We agree wi th thi s re comme ndation . W e w ill coo rdinate with MHM to e n s ure t h at
              they i_
                    lTIple m ent procedures to e nsure that grant accou n ting reco rd s reconcile to
              MH M accountin g records .




                                                      22

       2 . Maintain t imesheets a nd/o r a ctivity r eports, a s app ropri ate, fo r g r a n t fu n ded
           employees.

               We agree with this recommendation. We w ill coordinate with MHM to ens ure that
               they mai ntai n timcsheets andlor activity reports, as appropriate. for gran t fu nd ed
               em ployees.

       3 . Re med y the $362,796 in uns u ppo r t ed p erson nel costs.

               We agree with this recommend ation . We will coordinate with MHM to rem edy the
               $362,796 in unsupported personnel costs.

       4 . Rcmed y the $4,724 in unallowable pe rson ne l costs .

               We agree with this reco mmendatio n. We w ill coordinate w ith MHM to remedy the
               $4 ,724 in unallowab le personnel costs.

       5. Remed y the $3.513 in unsu p p o rted oth e r direct costs

               We agree with this recom mend atio n . W e wi ll coordinate w ith MHM to rem t..--dy the
               $3,513 in uns upported o ther direct costs.

       6. Develop p o licies and procedures to ensure th a t exp enses a re s u p p o rted a nd
          prope rly auth o rized.

               We agree w ith th is recommend ation. We w ill coord inate w ith MHM to ensure that
               they develo p policies and proct..-dures to ens ure that expenses are suppo rted and
               properl y authorized.

       7. Develop p o lk ics a n d p rocedures to ensure t h a t d ocumenta t ion is mainta ined to
          support prog ress report data r elated to train in g activities and volunteer scrvices
          p ro vided b y JA M L AC p erson n e l.

               We ab'Tce with this recom mendation . W e will coordi nate w il h M H M to ensure that
               they develop policies and procedures to ens ure that docume nta tion is maintai ned to
               support progress report data re lated to training activ it-ies and volun teer services
               pro vid ed by JAM LAC personnel.

W e apprecia te the oppo rtuni ty to review and com ment o n the dra ft repo rt. We w ill con ti nue to
w ork with M HM to address the reco m mendatio ns. If you have any q uestions or req uire
additi onal in fo rmation. pl ease contact Rodney Samuel s of my staff at: (202) 514-9820.

cc :       Ang ela W ood
           Budget O fficer
           O ffi ce on Violence Against Women



                                                       2




                                                       23

Shannon Gaskins
Pro&>ram Specialist
Office on V iolence Against Women




                                    3




                                    24

                                                                     APPENDIX V

                  OFFICE OF THE INSPECTOR GENERAL 

                 ANALYSIS AND SUMMARY OF ACTIONS 

                   NECESSARY TO CLOSE THE REPORT


       The Office of the Inspector General (OIG) provided a draft of this audit report
to the Office on Violence Against Women (OVW) and to the Mile High Ministries
(MHM). The OVW response is incorporated in Appendix IV and the MHM response is
incorporated in Appendix III of this final report. The following provides the OIG
analysis of the responses and summary of actions necessary to close the report.

Recommendation Number:

   1.	   Implement procedures to ensure that grant accounting records
         reconcile to MHM accounting records.

         Resolved. OVW concurred with our recommendation to implement
         procedures to ensure that grant accounting records reconcile to MHM
         accounting records. OVW stated in its response that they will coordinate
         with MHM to ensure that they implement procedures to ensure that grant
         accounting records reconcile to MHM accounting records.

         In its response on page 18 of this report, the MHM concurred with our
         recommendation. MHM stated in its response that they implemented new
         accounting procedures on July 1, 2013, and that these new procedures
         require the grant and MHM accounting records be reconciled on a monthly
         basis. However, MHM officials did not provide any documentation
         supporting its new policy.

         This recommendation can be closed when we receive documentation
         demonstrating that the MHM has implemented procedures to ensure that
         grant accounting records reconcile to MHM accounting records.

   2.	   Maintain timesheets and/or activity report, as appropriate, for
         grant-funded employees.

         Resolved. OVW concurred with our recommendation for the MHM to
         maintain timesheets and/or activity reports, as appropriate, for
         grant-funded employees. OVW stated in its response that they will
         coordinate with MHM to ensure that they maintain timesheets and/or
         activity reports, as appropriate, for grant-funded employees.

         On pages 18 and 19, the MHM concurred with our recommendation. MHM
         stated that they had implemented new procedures where all MHM

                                         25 

     employees, including those employees who work solely on the OVW grant,
     must maintain timesheets. MHM commented that there was no mention of
     a requirement to maintain timesheets during a Financial Management
     Training they attended and that the 2009 Financial Guide has no mention of
     a requirement to keep timesheets unless an employee is paid using multiple
     sources.

     As stated on pages 5 and 6, we noted discrepancies between the grant
     accounting records maintained by JAMLAC and the MHM accounting records
     and that timesheets were not maintained for JAMLAC employees paid using
     grant funds, including employees that were only partially grant-funded. We
     also noted that due to: (1) the inconsistent hours worked by the Associate
     Director; (2) inconsistencies between paystubs and general ledger entries;
     (3) the fact that the salaries of other staff were charged to the grant for the
     grant-funded positions, and (4) the nature of general ledger entries we
     could not rely on supporting documentation or grant accounting records to
     ensure that the personnel costs charged to the grant were accurate,
     allowable, and supported. In response to the draft report, MHM officials
     also provided timesheets for the Immigration Attorney and the Associate
     Director. However, MHM officials did not provide timesheets for employees
     who were funded by multiple sources and the timesheets provided did not
     indicate the amount of time charged to Grant No. 2009-WL-AX-0007.
     Therefore, we determined that the documentation that MHM officials
     provided with their response to the Draft Audit Report was not sufficient to
     support the personnel costs charged to the grant.

     This recommendation can be closed when we receive documentation
     demonstrating that the MHM maintains timesheets and/or activity reports,
     as appropriate, for grant-funded employees.

3.   Remedy the $362,796 in unsupported personnel costs.

     Resolved. OVW concurred with our recommendation to remedy the
     $362,796 in unsupported personnel costs. OVW stated in its response that
     they will coordinate with MHM to remedy the $362,796 in unsupported
     personnel costs.

     On page 19, the MHM disagreed with our recommendation, stating that
     while they agree that there are no timesheets for the observed periods, the
     personnel costs are supported by the services provided. MHM officials also
     referenced statements in our report that we did not find any indication that
     the MHM was not on track to accomplish the goal and objectives of the
     grant or that it did not comply with the grant’s special conditions. MHM
     officials also stated that the OJP Financial Guide and the 2012 OVW
     Financial Grants Management Guide state that timesheets are not required
     for an employee who is paid using one funding source, but after-the-fact
     certifications that the employee is working 100 percent of their time on the
     grant award must be prepared.

                                       26

     We disagree with the MHM’s analysis regarding proper documentation for
     personnel costs. Our report does state that we did not find any indication
     that the MHM was not on track to accomplish the goal and objectives of the
     grant. However, this statement does not support MHM’s argument that
     personnel costs charged to the grant were supported. Also, MHM’s
     response did not accurately quote our findings related to special conditions
     of the grant. Our draft report stated, “unless otherwise noted in this
     report, we did not note any instances where the MHM did not comply with
     the grant’s special conditions.” However, we have clarified our report,
     which includes findings related to MHM’s failure to comply with grant special
     conditions, including requirements regarding timesheets for employees paid
     from multiple funding sources.

     Also, as explained on pages 8 and 9, we acknowledged the forms certifying
     the work of the Immigration Attorney, but we also noted that MHM could
     not support the Immigration Attorney personnel costs charged to the grant
     prior to the Immigration Attorney working full time because of: (1) the
     nature of payroll entries made in the grant accounting records, (2) the lack
     of timesheets for grant-funded positions, and (3) the fact that the salaries
     of other staff were charged to the grant for the Immigration Attorney
     position. The Associate Director did provide a certification, but due to the
     inconsistent hours worked by the Associate Director and the reasons
     previously mentioned, we consider the salary payments made to the
     Associate Director to be unsupported.

     It should also be noted that the questioned costs for the Immigration
     Attorney, Paralegal, second Family Law Attorney, and Legal Advocate were
     also due to documentation indicating that: (1) they were funded by more
     than one funding source, (2) the lack of timesheets for these positions, and
     (3) the fact that the salaries of other staff, not included in the approved
     budget, were charged to the grant and the nature of payroll entries into the
     grant accounting records did not show this information. MHM officials did
     not provide any new documentation regarding these matters.

     This recommendation can be closed when we receive documentation
     demonstrating that MHM has remedied the $362,796 in unsupported
     personnel costs.

4.   Remedy the $4,724 in unallowable personnel costs.

     Resolved. OVW concurred with our recommendation to remedy the $4,724
     in unallowable personnel costs. OVW stated in its response that they will
     coordinate with MHM to remedy the $4,724 in unallowable personnel costs.

     On pages 19 and 20, the MHM disagreed with our recommendation, stating
     that “[they] agree that there were no timesheets for the observed periods;
     however, in each instance the JAMLAC employee performed the duties

                                      27

      associated with the transaction description. Because [their] legal clinic is
      small [they] had a policy that employees could fill-in for employees if the
      situation warranted it. This policy was changed when the new Operations
      Director began working at MHM in 2012.”

      As stated on page 10, we noted several instances where JAMLAC employees
      that were not included in the approved budget were being paid using grant
      funds. We determined that these personnel costs were unallowable
      because these JAMLAC employees were not included in the OVW-approved
      budget. The duties performed by these individuals do not relate to these
      personnel costs being allowable.

      MHM officials did not provide any new documentation relating to this
      recommendation. This recommendation can be closed when we receive
      documentation demonstrating that MHM has remedied the $4,724 in
      unallowable personnel costs.

5.	   Remedy the $3,513 in unsupported other direct costs.

      Resolved. OVW concurred with our recommendation to remedy the $3,513
      in unsupported other direct costs. OVW stated in its response that they will
      coordinate with MHM to remedy the $3,513 in unsupported other direct
      costs.

      On page 20, the MHM provided supporting documentation for one
      transaction and stated that they could not acquire receipts for the other
      transactions. Based on the supporting documentation provided by MHM
      officials, this recommendation was reduced by $1,100.

      This recommendation can be closed when we receive documentation
      demonstrating that the MHM has remedied the remaining $2,413 in
      unsupported other direct costs.

6.	   Develop policies and procedures to ensure that expenses are
      supported and properly authorized.

      Resolved. OVW concurred with our recommendation to develop policies
      and procedures to ensure that expenses are supported and properly
      authorized. OVW stated in its response that they will coordinate with MHM
      to ensure that they develop policies and procedures to ensure that
      expenses are supported and properly authorized.

      On page 20, the MHM concurred with our recommendation. MHM stated in
      its response that now, “all expenses are submitted to the Executive Director
      for signed approval. Then, the Executive Director sends the approved
      invoice to MHM accounting for processing.” However, we did not receive
      any documentation supporting this new policy.


                                       28

      This recommendation can be closed when we receive documentation
      demonstrating that the MHM has implemented policies procedures to
      ensure that expenses are supported and properly authorized.

7.	   Develop policies and procedures to ensure that documentation is
      maintained to support progress report data related to training
      activities and volunteer services provided by JAMLAC personnel.

      Resolved. OVW concurred with our recommendation to develop policies
      and procedures to ensure that documentation is maintained to support
      progress report data related to training activities and volunteer services
      provided by JAMLAC personnel. OVW stated in its response that they will
      coordinate with MHM to ensure that they develop policies and procedures to
      ensure that documentation is maintained to support progress report data
      related to training activities and volunteer services provided by JAMLAC
      personnel.

      On page 20, MHM officials concurred with our recommendation. MHM
      stated in its response that MHM implemented new procedures on July 1,
      2013, where all training activities and volunteer services will be
      documented and retained for 3 years. MHM officials provided
      documentation showing documentation of training events and volunteer
      services that have occurred since July 1, 2013. However, we did not
      receive any documentation supporting this new policy.

      This recommendation can be closed when we receive documentation
      demonstrating that the MHM has implemented procedures to ensure that
      documentation is maintained to support progress report data related to
      training activities and volunteer services provided by JAMLAC personnel.




                                      29

